      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




May 6, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Physician Therapy Services Provided During Home Health Episodes in
               Calendar Year 2008 (A-01-09-00530)


The attached final report provides the results of our review of physician therapy services
provided during home health episodes in calendar year 2008.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-01-09-00530
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




          REVIEW OF
 PHYSICIAN THERAPY SERVICES
PROVIDED DURING HOME HEALTH
         EPISODES IN
     CALENDAR YEAR 2008




                      Daniel R. Levinson
                       Inspector General

                          May 2011
                        A-01-09-00530
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicare home health prospective payment system (HH PPS) requires consolidated billing
of home health services. Pursuant to the Social Security Act, §§ 1842(b)(6)(F) and 1862(a)(21),
the home health agency that establishes the beneficiary’s plan of care is responsible for billing
Medicare for the services included in the prospective payment rate.

Prior to the implementation of the HH PPS on October 1, 2000, therapy services furnished to
beneficiaries receiving home health care were separately billable to Part B by outside providers
such as physicians, therapists, and outpatient facilities. A portion of the 60-day episode base rate
included reimbursement for therapy services that were separately billable to Part B before
implementation of the PPS. In May 2003, the Centers for Medicare & Medicaid Services (CMS)
instructed Medicare contractors to allow Part B payments for therapy services furnished during
home health episodes whenever those services were billed with a physician specialty code.

Beginning in 2014, CMS must rebase home health payments to improve payment accuracy for
home health agencies.

Our review included an analysis of the development of the base rate and of updates through
2010. According to CMS officials, CMS did not maintain the original episode data that were
used to calculate the base rate and could not recreate the episodes. Thus, we could not determine
the portions of the base rate attributable to specific types of therapy providers.

OBJECTIVE

Our objective was to determine whether the HH PPS base rate includes reimbursement for
physician-provided therapy services that are also separately billable by physicians and are not
subject to the consolidated billing requirement.

SUMMARY OF FINDING

CMS includes in the HH PPS base rate reimbursement to home health agencies for physician-
provided therapy services that are not subject to the consolidated billing requirement and are
billable by physicians. Although CMS has allowed Part B payments to physicians for therapy
services furnished during home health episodes since 2003, the home health base rate was not
adjusted because CMS officials believed that the effort to determine the extent of physician-
provided therapy included in the base rate did not justify the perceived benefit in improved
payment accuracy. As a result, when a physician bills Part B for therapy provided to a
beneficiary during a home health episode, Medicare pays twice for the same service: once to the
physician under Part B and again to the home health agency under the HH PPS. For example,
during calendar year 2008, Medicare Part B paid physicians $13.5 million for therapy services
furnished during home health episodes. For the same period, we calculated that home health
agencies received approximately $117.5 million to provide therapy services that, prior to PPS,
were separately billable to Part B by all outside therapy providers. We did not have sufficient

                                                 i
data to determine how much of the payment received by home health agencies was attributable
to therapy services provided only by physicians.

RECOMMENDATION

We recommend that CMS eliminate any duplicate payments when rebasing home health
payments by adjusting the HH PPS rate to exclude physician-provided therapy services or by
making physician therapy services subject to the consolidated billing requirement again.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its written comments on our draft report, CMS agreed with our recommendation and provided
information on action that it planned to take to address the recommendation. CMS’s comments
are included in their entirety as Appendix C.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page


INTRODUCTION ...............................................................................................................1

          BACKGROUND ......................................................................................................1
              Medicare Home Health Benefit .....................................................................1
              Home Health Prospective Payment System and Consolidated Billing..........1
              Requirement To Rebase Home Health Payments ..........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2
               Objective .......................................................................................................2
               Scope .............................................................................................................2
               Methodology .................................................................................................2

FINDING AND RECOMMENDATION ..........................................................................3

                    FEDERAL REQUIREMENTS .....................................................................3

                    POTENTIAL DUPLICATE PAYMENTS FOR
                     PHYSICIAN-PROVIDED THERAPY DURING
                     HOME HEALTH EPISODES ...................................................................3

          RECOMMENDATION ............................................................................................4

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .............4

OTHER MATTER ..............................................................................................................4

APPENDIXES

          A: CALCULATION DESIGN AND METHODOLOGY

          B: CALCULATION RESULTS

          C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                         INTRODUCTION

BACKGROUND

Medicare Home Health Benefit

The Medicare program, which the Centers for Medicare & Medicaid Services (CMS)
administers, covers home health services to eligible beneficiaries who are generally home bound
and need skilled care. Medicare Parts A and B pay for home health services. As a condition of
participation in the Medicare program, home health agencies must establish a written plan of
care for each beneficiary. The plan of care includes the types of services required and the
frequency of visits.

Home Health Prospective Payment System and Consolidated Billing

Section 1895 of the Social Security Act (the Act) established a prospective payment system for
home health services (HH PPS) effective October 1, 2000. Under the HH PPS, CMS established
a base rate for a 60-day episode of care that accounts for the costs of skilled nursing services,
therapy services, medical social services, home health aide services, and medical supplies. CMS
updates the base rate annually using the home health market basket index. For each 60-day
episode of care, CMS also adjusts the base rate for geographic factors and case mix.

Pursuant to the Act, §§ 1842(b)(6)(F) and 1862(a)(21), the home health agency that establishes
the beneficiary’s plan of care is responsible for consolidated billing for all Medicare services
included in the prospective payment rate. A portion of the HH PPS base rate includes
reimbursement for therapy services that were separately billable to Part B before implementation
of the HH PPS (Part B therapy portion of the base rate). Prior to the implementation of the
HH PPS, therapy services furnished to beneficiaries receiving home health care were separately
billable to Part B by outside providers such as physicians, therapists, and outpatient facilities.

In May 2003, CMS issued Program Transmittal B-03-037, Change Request 2705, which states
that therapy services are not subject to the home health consolidated billing requirement when
performed by a physician.

Requirement To Rebase Home Health Payments

The Medicare Payment Advisory Commission has reported, “[p]ayments have consistently and
substantially exceeded costs in the home health prospective payment system.” 1 The Patient
Protection and Affordable Care Act requires CMS to rebase home health payments starting in
2014 to improve payment accuracy for home health agencies. The rebasing should reflect such



1
 Medicare Payment Advisory Commission, Report to the Congress: Medicare Payment Policy, March 2010,
section 3B, page 200.


                                                    1
factors as changes in the number of visits, mix of services, level of intensity of services in an
episode, and average cost of providing care per episode. 2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the HH PPS base rate includes reimbursement to home
health agencies for physician-provided therapy services that are also separately billed by
physicians and are not subject to the consolidated billing requirement.

Scope

Our review included an analysis of the development of the base rate and subsequent updates
through 2010. The objective of our audit did not require an understanding or assessment of the
overall internal control structure of the HH PPS. According to CMS officials, CMS did not
maintain the original episode data that were used to calculate the base rate and could not recreate
the episodes. Thus, we could not determine the portions of the base rate attributable to specific
types of therapy providers.

Methodology

To accomplish our objective, we:

    •   reviewed applicable laws and regulations and Medicare policy;

    •   interviewed CMS officials regarding the development of, and updates to, the base rate
        and the availability of data used to calculate the Part B therapy portion of the base rate;

    •   applied the annual HH PPS updates to the Part B therapy portion of the base rate through
        calendar year (CY) 2008 and used data from the National Claims History file to
        determine the number of CY 2008 home health episodes (Appendix A);

    •   calculated CY 2008 payments to home health agencies for therapy services that could
        have been separately billable to Part B before the implementation of the PPS
        (Appendix B);

    •   used data from the National Claims History file to determine CY 2008 Part B payments
        for therapy services billed with a physician specialty code and furnished during a home
        health episode;




2
 The Patient Protection and Affordable Care Act, P.L. No. 111-148, §§ 3131 and 10315, which added
§ 1895(b)(3)(A)(iii) to the Social Security Act; 42 U.S.C. § 1395fff(b)(3)(A)(iii).

                                                      2
   •   analyzed the CY 2008 physician-provided therapy payment data; and

   •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objective.

                           FINDING AND RECOMMENDATION

CMS includes in the HH PPS base rate reimbursement to home health agencies for physician-
provided therapy services that are not subject to the consolidated billing requirement and are
separately billable by physicians. Although CMS has allowed Part B payments to physicians for
therapy services furnished during home health episodes since 2003, the home health base rate
was not adjusted because CMS officials believed that the effort to determine the extent of
physician-provided therapy included in the base rate did not justify the perceived benefit in
improved payment accuracy. As a result, when a physician bills Part B for therapy provided to a
beneficiary during a home health episode, Medicare pays twice for the same service: once to the
physician under Part B and again to the home health agency under the HH PPS.

FEDERAL REQUIREMENTS

Pursuant to the Act, §§ 1842(b)(6)(F) and 1862(a)(21), the home health agency that establishes
the plan of care is responsible for billing Medicare for the services included in the prospective
payment rate. Medicare pays the home health agency under the HH PPS for these services
regardless of whether the services were furnished by the agency or by an outside provider.

In a policy change in May 2003, CMS instructed the Medicare contractors to allow Part B
payments for therapy services furnished during home health episodes whenever those services
were billed with a physician specialty code.

POTENTIAL DUPLICATE PAYMENTS FOR PHYSICIAN-PROVIDED
THERAPY DURING HOME HEALTH EPISODES

The home health base rate includes reimbursement for physician-provided therapy services that
are not subject to the consolidated billing requirement and therefore are separately billable by
physicians. In establishing the base rate for home health services, CMS included reimbursement
for therapy services that were previously separately billable to Part B by physicians, therapists,
and outpatient facilities. The amount included in the base rate for these therapy services was
$17.67 per episode.

When CMS changed its policy in 2003 to allow separate Part B payments for physician-provided
therapy services, CMS should have reduced the base rate accordingly. However, CMS officials

                                                 3
stated that the effort to determine the extent of physician-provided therapy included in the base
rate did not justify the perceived benefit in improved payment accuracy. Because the base rate
was not adjusted, Medicare may pay twice for physician-provided therapy services—once to the
home health agency under the HH PPS and again to the physician under the Part B physician fee
schedule.

During CY 2008, Medicare Part B paid physicians $13.5 million for therapy services furnished
during home health episodes. These services included therapeutic exercises, neuromuscular
reeducation, therapeutic activities, manual therapy, and massage therapy. For the same period,
we calculated that home health agencies received approximately $117.5 million to provide
therapy services that, before PPS, were separately billable to Part B by all outside therapy
providers. However, without the simulated episodes that CMS used to establish the base rate, we
could not determine how much of the $117.5 million was attributable to therapy services
provided only by physicians.

RECOMMENDATION

We recommend that CMS eliminate any duplicate payments when rebasing home health
payments by adjusting the HH PPS rate to exclude physician-provided therapy services or by
making physician therapy services subject to the consolidated billing requirement again.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its written comments on our draft report, CMS agreed with our recommendation. When it
rebases the home health PPS rates, as required by the Patient Protection and Affordable Care
Act, CMS stated it will ensure that the costs of providing physician-provided therapy services are
not included in the rebased rates.

                                      OTHER MATTER

We noted that more than $5.2 million of the $13.5 million in Medicare Part B payments for
physician-provided therapy during CY 2008 home health episodes was paid to one physician.
The physician in question was recently indicted for billing therapy services that were not
provided. This level of payments to a single provider may indicate that prepayment controls are
insufficient to identify physician billing and utilization patterns that represent a high risk of
improper payment activity.




                                                4
APPENDIXES
                                                                                                     Page 1 of 2
              APPENDIX A: CALCULATION DESIGN AND METHODOLOGY

Description of Calculation

We calculated the amount that home health agencies were reimbursed under the prospective
payment system (PPS) in calendar year (CY) 2008 for therapy services that were separately
billable to Part B before implementation of the PPS. 1

Calculation Methodology

Under the PPS, Medicare pays home health agencies using a base rate. When the PPS was
implemented on October 1, 2000, the base rate included a payment of $17.67 (Part B therapy
portion of the base rate) to reimburse home health agencies for therapy services previously
separately billable to Part B.

As required by § 1895(b)(3)(B) of the Social Security Act, the Centers for Medicare & Medicaid
Services (CMS) updates the PPS rate annually. We applied the annual updates to the original
Part B therapy portion of the base rate of $17.67, yielding a CY 2008 Part B therapy portion of
the base rate of $19.37.

Home health agencies received PPS payments for 6,065,749 episodes in CY 2008. We
calculated payments to home health agencies in CY 2008 for therapy services that were
separately billable to Part B before implementation of the PPS by multiplying the number of
episodes by the Part B therapy portion of the base rate for CY 2008.

Sources of Data

CMS generally publishes annual updates to the home health PPS rate in the Federal Register. In
addition, CMS publishes policy updates in Change Request transmittals. The following
references document the calculation of the original Part B therapy portion of the base rate and
subsequent updates to the base rate:

    •    65 Fed. Reg. 41128, 41183–41184 (July 3, 2000)

    •    66 Fed. Reg. 34687, 34689–34690 (June 29, 2001)

    •    67 Fed. Reg. 43616, 43619 (June 28, 2002)

    •    68 Fed. Reg. 39764, 39767 (July 2, 2003)

    •    CMS Transmittal 59, Change Request 3085 (Feb. 20, 2004)

    •    69 Fed. Reg. 62124, 62133 (Oct. 22, 2004)

    •    70 Fed. Reg. 68132, 68134 (Nov. 9, 2005)

1
 For purposes of our calculation, we assumed that the rate used was for a typical home health beneficiary residing in
an average market. Thus, we did not adjust our calculation for case mix and geographic factors.
                                                                                Page 2 of 2

   •   CMS Transmittal 211, CMS Change Request 4282 (Feb. 10, 2006)

   •   71 Fed. Reg. 65884, 65887 (Nov. 9, 2006)

   •   72 Fed. Reg. 49762, 49850 and 49864–49865 (Aug. 29, 2007)

We extracted data from CMS’s National Claims History file to determine the number of paid
PPS home health episodes in CY 2008.
                APPENDIX B: CALCULATION RESULTS

Number of CY 2008             Calculated        Calculated Part B
 Home Health PPS           CY 2008 Part B     Therapy Portion of the
  Paid Episodes            Therapy Portion    Base Rate Applicable to
                           of the Base Rate     CY 2008 Episodes

    6,065,749         X        $19.37              $117,493,558
                         APPENDIX C: CENTERS FOR MEDICARE &
                            MEDICAID SERVICES COMMENTS                                     Page 1 of2

    DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers for Medicare & Medicaid SelVices
                                                   -~-~.-------.. ~ . .        _-­
                                                                              Administrator
                                                                               Washington. DC 20201




DATE:
                MAR 2 4 2011
TO: 	          Daniel R. Levinson
               Inspector General

FROM:          Donald M. Berwick, M.D:=..:-.-1'---=""""""'~~.l 

               Administrator 


SUBJECT: 	 Office ofInspector General      G) Draft Report: Review of Physician Therapy
               Services Provided During Home Health Episodes in Calendar Year 200S
               (A-OI-09-00530)


The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
respond to the OIG Draft Report titled "Review of Medicare Review of Physician Therapy
Services Provided During Home Health Episodes in Calendar Year 200S " (A-OI-09-00530).

The OIG states that beginning in 2003 CMS changed its policy to allow separate Part B
payments for physician-provided therapy services to home health patients. Moreover, the OIG
states that the home health prospective payment system (HH PPS) base rate includes
reimbursement for therapy services that were previously separately billable under Part B by
physicians, therapists, and outpatient facilities. As a result, the OIG asserts that when physicians
bill Part B for therapy they provided to a beneficiary in a home health episode, Medicare pays
twice for the same service.

Section lS61(m) ofthe Social Security Act (the Act) defines home health services under the
Medicare program as including a range of health services, including therapy services. Section
lS42(b)(6)(F) of the Act requires the consolidated billing of all home health services (with the
exception of durable medical equipment) while a beneficiary is under a home health plan of care
authorized by a physician. However, therapy services provided by a physician are not part of the
definition of Medicare home health services and are thus not subject to the home health
consolidated billing requirement. Beginning in 2003, through the issuance of Transmittal B-03­
037/ Change Request #2705 (dated May 2, 2003), CMS corrected the home health consolidated
billing system requirements to allow for payment for therapy services provided by physicians to
beneficiaries who are in a Medicare home health episode of care.

OIG Recommendation

The OIG recommends that CMS eliminate these duplicate payments when rebasing home health
payments by adjusting the HH PPS rate to exclude physician-provided therapy services or by
making physician therapy services subject to the consolidated billing requirement again.
                                                                                       Page 2 of2
2 - Daniel R. Levinson

eMS Response

The CMS concurs with this recommendation. In rebasing the HH PPS rates, as required by
section 3131(a) of the Patient Protection and Affordable Care Act, CMS will take into account
only those therapy services provided either directly (or indirectly) by the home health agency and
reported on the home health claim. As such, the costs of providing physician-provided therapy
will not be included in the rebased HH PPS rates.

We thank the 010 for presenting its findings and we appreciate their perspective on these issues.
